»
;

STATE OF MICHIGAN
IN THE 14th CIRCUIT COURT

* * * ie it

PEOPLE OF THE STATE OF MICHIGAN
Plaintiff,

HON. TIMOTHY G. HICKS

v
File No. 06-053181-FC
DOUGLAS WEISSERT, #632314,
Defendant.
Dale J. Hilson (P57726)
Muskegon County Prosecutor
990 Terrace Street, Fifth Floor
Muskegon, Ml 49442
(231) 724-6435
Douglas Weissert
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Ml 49036 r

OPINION AND ORDER DENYING
MOTION FOR RELIEF FROM JUDGMENT
INTRODUCTION
Defendant, Douglas Weissert, ("Weissert”) presents the court-with a motion
seeking relief from his 2007 conviction and sentence. He alleges several grounds for his
request. For the reasons set forth in this opinion and order, the court respectfully denies \.
the motion.
FACTS AND PROCEDURAL HISTORY-“
On December 20, 2016, Weissert was convicted by a jury of one count of felony
murder contrary to MCL 750.316(b), one count of conspiracy to commit armed robbery
contrary to MCL 750.529, one count of assault with intent to rob while armedicontrary.to:

apx.

4

MLC 750.89, one count of first-degree home invasion contrary to MCL 750.110a(2), and
three counts of felony-firearm contrary to MCL 750.227b. He was sentenced to life for
the felony murder conviction. The court imposed additional sentences of 17 to 35 years
on the conspiracy charge, and three two year terms for the felony-firearm convictions.
Weissert appealed his conviction alleging violations of his Sixth Amendment
right of confrontation and Fifth Amendment right to counsel, insufficiency of the
evidence, improper use of non-standard jury instructions, deprivation of meaningful
cross-examination at his preliminary examination, and double jeopardy violations. The
Court of Appeals affirmed the counts of felony murder and conspiracy, and one count of
felony-firearms, but remanded back to the trial court with direction to vacate the
remaining offenses finding they violated Weissert’s double jeopardy protections. People
v Weissert, unpublished opinion of the court of appeals per curiam issued November
20, 2008 (Docket No. 276150 and 282322).
Weissert now seeks relief from his conviction under MCR 6.500 etseq.
DISCUSSION
Motions for relief are governed by MCR 6.500 et seq. People v Swain, 288 Mich
App 609, 629; 794 NW2d 92 (2010). Such motions are the exclusive means for a
defendant to challenge a conviction once they have exhausted the normal appellant
process. People v Wartroba, 193 Mich App 124, 126; 483 NW2d 441 (1992). Pursuant
to MCR 6.502(G)(1), a defendant in a criminal case may file one and only one motion
for relief from judgment with regard to conviction.
The court may not grant relief to a defendant who alleges grounds which could
have been raised on appeal unless the defendant demonstrates good cause for the

Page 2 of 5

;

failure to raise such grounds on appeal or in the prior motion, and actual prejudice from
the alleged irregularities that support the claim for relief. MCR 6.508(D)(3).
Weissert certainly could have raised the issues alleged in his brief on appeal. He
does not attempt, however, to demonstrate good cause for his failure to do so for the
majority of the grounds he alleges. Rather, Weissert only argues that appellate counsel
was ineffective for failing to raise one specific issue: the trial court precluding cross
examination of state witness Anjanette Lewis on her mental health issues. To the extent
that Weissert fails to demonstrate good cause and actual prejudice for the additional
grounds alleged in his motion and brief in support, the court is barred from granting
relief by MCR 6.508(D)(3). An analysis of the issue regarding the mental health of Mrs.
Lewis follows.
Good Cause
“Good cause,” as required by MCR 6.508(D)(3) can be shown by demonstrating
ineffective assistance of counsel. People v Reed, 449 Mich 375, 378; 535 NW2d 496
(1995). In order to demonstrate ineffective assistance of counsel, the defendant must
show that attorney's performance “fell below an objective standard of reasonableness.”
People v Grant, 470 Mich 477, 485; 684 NW2d 686 (2004). The defendant must
overcome the presumption that counsel’s decisions could constitute sound trial strategy.
Strickland v Washington, 466 US 668, 689; 104 S Ct 2052; 80 L ED 2d 674 (1984). The
defendant must also show that he was prejudiced by this performance such that he was
deprived of a fair trial. Grant, supra at 486. To establish prejudice the defendant must
demonstrate a reasonable probability that the outcome of trial would have differed but
for counsel’s conduct. Id.

Failure to raise every issue with any arguable legal merit

Page 3 of 5

‘ ,

,1 v

J

appeal does not constitute ineffective assistance of counsel. Reed, supra at 378.
Weissert claims that the trial court’s limit on cross examination and in camera
review of Anjanette Lewis’s counseling and mental health records was the strongest
issue to raise on appeal, and that appellate counsel’s failure to raise the issue
constitutes ineffective assistance of counsel. He argues that the ultimate failure of
seven of the nine issues raised by counsel establishes that the issue regarding mental
health evidence is “clearly the best.”
This argument fails to address or establish whether appellate counsel’s
performance fell below an objective standard of reasonableness, and therefore does not
establish ineffective assistance of counsel. Further, Weissert fails to overcome the
presumption that counsel’s decision constituted sound trial strategy. Counsel presented
nine issues on behalf of Weissert. While counsel may not have raised the particular
issues Weissert desired, this is not a sufficient basis for this court to determine that
counsel did not exercise sound discretion in determining whether to present the issue
on appeal. Accordingly, Weissert has not demonstrated good cause as defined by
current case law and court rule.
Actual Prejudice
Moreover, Weissert fails to demonstrate actual prejudice under MCR 6.508. In
order to establish “actual prejudice” in convictions following trial, the defendant must
demonstrate that but for the alleged error, the defendant would have had a reasonably
likely chance of acquittal. MCR 6.508(D)(3)(b)(i).
While Weissert claims that Anjanette Lewis was the prosecution’s most valuable
witness, he fails to establish that without her testimony, or the limitation on cross-

Page 4 of 5

i

*

examination, the outcome of the trial would have differed. Anjanette Lewis testified
concerning the behavior of her husband, Eddie Lewis, and interactions she personally
observed between Eddie Lewis and Weissert. The prosecution presented additional
witnesses, including Eddie Lewis, who testified to those same events. Weissert has not
established that absent the alleged defect the jury would have acquit.
CONCLUSION
For the reasons set forth in this opinion and order, Weissert has failed to
establish that he is entitled to relief under MCR 6.500 et seq. Accordingly, the motion is
respectfully DENIED.
IT IS SO ORDERED.

Date: August / /. 2018
Timothy G. Hicks, P35198
Circuit Judge
CERTIFICATE OF MAILING
I hereby certify that on the
day of August, 2018,. I personally mailed copies,of,this order to,the parties above
named at their respective addresses, by ordinary mail.

IuIlLja

Auturrin R. Ward, Circuit Court
Legal & Scheduling Secretary

Page 5 of 5

4L

STATE OF MICHIGAN
IN THE 14th CIRCUIT COURT
*****

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,

HON. TIMOTHY G. HICKS

v
File No. 06-053181-FC
DOUGLAS WEISSERT, #632314,
Defendant.
/

Dale J. Hilson (P57726)
Muskegon County Prosecutor
990 Terrace Street, Fifth Floor
Muskegon, Ml 49442
(231)724-6435
Douglas Weissert
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Ml 49036
OPINION AND ORDER DENYING MOTION FOR RECONSIDERATION
The court enters its opinion and order pursuant to defendant’s motion for
reconsideration. The court analyzes the motion for reconsideration below.
MCR 2.119(F) governs motions for reconsideration. (F)(2) precludes responsive
briefing and oral argument unless the court otherwise directs.

(F)(3) provides that a

“motion for rehearing or reconsideration which merely presents the same issues ruled
on by the court, either expressly or by a reasonable .Implication, will not be
granted.” Additionally, the moving party must demonstrate a “palpable error by which
the court and the parties have been misled and show that a different disposition of the
motion must result from correction of the error.”

Page 1 of 3

APXS

I
4-

The court entered its opinion and order denying defendant Douglas Weissert’s
(“Weissert”) motion for relief from judgment on August 17, 2018. Weissert now requests
that the court reconsider its decision.
Weissert reasserts the positions raised in his original brief, with some added
clarification and emphasis1. He argues that he has sufficiently established both good
cause and actual prejudice under MCR 6.508 to justify relief from his conviction and
sentence. The court has considered defendant’s argument and finds that it has not
committed a “palpable error” which would merit granting the motion for reconsideration.
These same issues were considered and addressed by the court in its original
opinion and order. Weissert’s added clarification fails to remedy the deficiencies that led
the court to its original conclusion.
The added clarification relating to the allegedly inconsistent trial testimony of Ed
Lewis does not sufficiently establish good cause. Ed Lewis’s trial was in August of 2006
several months before Weissert’s trial. Therefore, the transcripts of both trials were
discoverable to Weissert through due diligence both at the time of his own trial, and on
his direct appeal. Therefore, he has not demonstrated newly discovered evidence as
defined under Michigan case law. People v Cress, 468 Mich 678, 692; 664 NW2d 174
(2003).
In regards to the evidence of the mental health of Anjanette Lewis, Weissert has
not established appellate counsel was ineffective for failing to raise the issue on appeal
under the standard set for by People v Grant, 470 Mich 477; 684 NW2d 684 (2004). The

Weissert refers to the sub-arguments in his original brief as “issues” while they were broken down into
"arguments" in his original motion. However, the number designations used in—his motion for
reconsideration correspond to the respective Roman numeral or subsection used in the original motion for
relief from judgment.
’
'

Page 2 of 3

I
4,
status of a witness’s mental health is generally not relevant unless it bears on some
specific relevant factor. The decision not to delve into it is a legitimate one entrusted to
counsel.
For these reasons, the motion is respectfully DENIED.
IT IS SO ORDERED.
Dated: September b-L*/, 2018
HON'. TIMOTHY G. H'iCKS
Circuit Judge (P-35198)
CERTIFICATE OF MAILING

I

day of September, 2018, I personally mailed copies of this opinion and
I hereby certify that on this
order to the parties above named at their respective addresses, by ordinary mail.

/,kmu

fj'Mkd

Autumn R. Ward, Circuit Court
Judicial Secretary

Page 3 of 3

V

' »

€.

S-r-^

Court of Appeals, State of Michigan
ORDER
People of MI v Douglas Lance Weissert

James Robert Redford
Presiding Judge

Docket No.

346640

Jane M. Beckering

LC No.

06-053181-FC

Douglas B. Shapiro
Judges

The Court orders that the motion to waive fees is GRANTED for this case only.
The Court also orders that the delayed application for leave to appeal is DENIED because
defendant has failed to establish that the trial court erred in denying the motion for relief from judgment.

Presiding Judge

ssss?

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

APR 1 8 2019
Date

APXC

I
t

3

V

Court of Appeals, State of Michigan
ORDER
People of MI v Douglas Lance Weissert

James Robert Redford
Presiding Judge

Docket No.

346640

Jane M. Beckering

LC No.

06-053181-FC

Douglas B. Shapiro
Judges

The Court orders that the motion for reconsideration is DENIED.

Presiding Judge

0

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUN - 4 2019
Date
\

APJr.O

th“

•

^(Drder

Michigan Supreme Court
Lansing, Michigan

December 23, 2019

Bridget M. McCormack,
Chief Justice

159876 & (16)

David F. Viviano,
ChiefJustice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC: 159876
COA: 346640
Muskegon CC: 06-053181-FC

v

Justices

DOUGLAS LANCE WEISSERT,
Defendant-Appellant.

On order of the Court, the application for leave to appeal the April 18, 2019 order
of the Court of Appeals is considered, and it is DENIED, because the defendant has
failed to meet the burden of establishing entitlement to relief under MCR 6.508(D). The
motion to remand for an evidentiary hearing is DENIED.

i

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
December 23, 2019
pl216

Clerk

APX. E
i

i

Case: 20-1203

Document: 9-1

Filed: 05/29/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 29, 2020

Ms. Andrea M. Christensen-Brown
Michigan Department of Attorney General
P.O. Box 30217
Lansing, MI 48909
Douglas Weissert
Lakeland Correctional Facility
141 First Street
Coldwater, MI 49036
Re: Case No. 20-1203, In re: Douglas Weissert
Originating Case No.: l:10-cv-00851
Dear Mr. Weissert and Counsel,
The Court issued the enclosed (Order/Opinion) today in this case.
Sincerely yours,
s/Roy G. Ford
Case Manager
Direct Dial No. 513-564-7016
cc: Mr. Thomas Dorwin
Enclosure
No mandate to issue

(1 of 3)

Case: 20-1203

Document: 9-2

Filed: 05/29/2020

Page: 2

No. 20-1203
-2-

trial court erred by barring evidence of a witness’s mental health issues; and (3) trial counsel was
ineffective for failing to investigate and impeach witness testimony.
Weissert cannot meet the statutory criteria for filing a second or successive § 2254 petition
because, as he concedes, his proposed claims do not rely upon any newly discovered evidence or
upon a new, retroactively applicable rule of constitutional law. See 28 U.S.C. § 2244(b)(2),
(b)(3)(C).
Accordingly, we DENY Weissert’s motion for authorization to file a second or successive
§ 2254 petition and DENY his motion for the appointment of counsel.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(3 of 3)

